AUDIT OF WENDOVER FUNDING’S LOAN-SERVICING
               CONTRACTS

              Audit Report No. 99-008
                 January 25, 1999




             OFFICE OF AUDITS

       OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                                          Office of Audits
Washington, D.C. 20434                                                                            Office of Inspector General




   DATE:             January 25, 1999

   TO:               Michael J. Rubino, Jr.
                     Associate Director, Acquisition Services Branch
                     Division of Administration




   FROM:             Sharon M. Smith
                     Director, Field Audit Operations

   SUBJECT: Audit of Wendover Funding’s Loan-Servicing Contracts (Audit Report No. 99-008)

   This report presents the results of the Office of Inspector General’s (OIG) audit of Wendover
   Funding’s loan-servicing activities under Resolution Trust Corporation (RTC) contracts
   783-94-0125 and 713-94-0250. In an October 9, 1997 memorandum, you requested the OIG to
   audit Wendover’s loan-servicing activities because of concerns regarding Wendover’s lack of
   cooperation in resolving issues identified during RTC and Federal Deposit Insurance
   Corporation (FDIC) reviews.1 Specifically, your letter stated that Wendover did not provide
   (1) supporting documentation for fees charged and expenses reimbursed and (2) a complete
   accounting of funds due to the FDIC. Based on follow-up discussions with your staff, we agreed
   to audit income, expenses, and servicing fees on contracts 783-94-0125 and 713-94-0250.


   BACKGROUND

   The RTC’s Newport Beach and Valley Forge offices awarded contracts 783-94-0125 and
   713-94-0250, respectively. When the RTC’s Valley Forge office closed, contract 713-94-0250,
   which started in November 1994, was transferred to the FDIC’s Hartford office. In May 1997, it
   was transferred from Hartford to the FDIC’s Irvine office. When the RTC’s Newport Beach
   office closed, contract 783-94-0125, which started in May 1994, was transferred to the FDIC’s
   Irvine office. The contract expired in June 1997 and the Irvine office awarded Wendover a new
   contract, 97-00422-CEB, to continue servicing the loans that were under contract 783-94-0125.
   As of July 1, 1998, Wendover was servicing 6,507 loans with a total principal balance of
   $780.2 million under contracts 713-94-0250 and 97-00422-CEB. However, the FDIC owned
   only 135 of those loans in full and partially owned 31 participation loans. The remaining
   6,341 loans were loans serviced for others (LSFO) that belonged to investors. For some of the
   LSFO and participation loans, the FDIC was entitled to servicing fees from the investors as
   specified by written loan-servicing agreements. Table 1 shows the number and type of loans that
   Wendover was servicing under the two contracts.

   1
       The RTC ceased operations on December 31, 1995, and the FDIC assumed the RTC’s responsibilities.




                                                              1
Table 1: Loans Serviced by Wendover under FDIC Contracts As of July 1, 1998
                       Number of     Percentage of    Principal        Percentage of
     Loan Type           Loans        Total Loans      Balance         Total Balance
                   a
 LSFO (REMIC)             4,865           74.8      $697,956,000            89.5
        b
 LSFO                     1,476           22.7         68,432,000            8.8
 Split participation         31             0.5         2,517,000             .3
 Wholly owned               135             2.0        11,342,000            1.4
         Totals           6,507          100.0      $780,247,000           100.0
a
 For real estate mortgage investment conduit (REMIC) investor-owned loans, Wendover remitted principal and
interest collections to a trustee for further distribution to investors.
b
    For non-REMIC investor-owned loans, Wendover remitted principal and interest collections directly to investors.

Source: Wendover Funding’s loan-servicing system report as of July 1, 1998.

The loan-servicing contracts established procedures for Wendover to remit income and to be
reimbursed for asset-related expenses allowed under the contracts. The contracts also
established Wendover’s loan-servicing, loan-in-foreclosure, and loan-transfer-out fees. RTC
Circular 4310.4, Standardized Servicer Remittance Package, dated September 21, 1994, outlined
the monthly reports and supporting documentation that loan servicers were required to provide to
the FDIC.


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether Wendover (1) accurately and timely
remitted all income and (2) claimed only allowable and adequately supported asset-related
expenses and loan-servicing fees. To accomplish the objectives, we interviewed personnel in the
FDIC’s

           •   Division of Finance (DOF) in Dallas, Texas, who recorded Wendover’s income
               remittances and asset-related expense and servicing-fee payments under the contracts;

           •   Division of Administration (DOA) in Irvine, California, who administered the contracts
               during the period covered by our audit;

           •   Division of Resolutions and Receiverships (DRR) in Irvine, California, who provided
               oversight of Wendover’s loan-servicing activities, which included reviewing monthly
               loan-servicing activity reports, invoices, and supporting documentation; and

           •   DRR, Office of Internal Review in Washington, D.C., who reviewed some aspects of
               Wendover’s loan-servicing activities under contract 783-94-0125.

We also interviewed the president of the Mortgage Project Group in Irvine, California, which
had a contract with the FDIC to provide property management and marketing services. Under
the contract, the Mortgage Project Group was responsible for managing and selling real-estate


                                                           2
collateral from foreclosed loans. It also coordinated with the trustee and investors on a real
estate mortgage investment conduit (REMIC) loan portfolio and supported the FDIC's efforts to
sell loan portfolios by reconciling expenses and principal and interest advances. Finally, we
interviewed Wendover representatives at their offices in Greensboro, North Carolina.

We reviewed the contracts and monthly loan-servicing reports, including remittance reports, wire
confirmations, invoices, and supporting documentation. For contract 783-94-0125, we selected
the last 3 months of the contract period—April 1997 through June 1997. For contract
713-94-0250, we selected the last 3 months—February 1997 through April 1997—that the
contract was managed by the FDIC’s Hartford office before being transferred to the Irvine office.
Those two contracts included 17,453 loans with a $1.2 billion total principal balance during the
sample periods. We also reviewed DRR invoice exception logs, DRR and DOF site visit and
contractor oversight reports, and previous OIG audit reports related to Wendover’s
loan-servicing activities.

Although we reviewed Wendover’s servicing fees and expenses for the REMIC loans, we did not
review fund advances or adjustments recorded by Wendover for those loans because of the
Mortgage Project Group’s work. We also did not review the timeliness of foreclosure actions on
loans serviced by Wendover because the FDIC’s Atlanta office had an ongoing project to review
foreclosures.

We did not evaluate Wendover’s system of internal controls related to its loan-servicing
activities under the FDIC contracts. We concluded that the audit objective could be met more
efficiently by conducting substantive tests rather than placing reliance on the internal control
system. The OIG conducted the audit from December 1997 through October 1998 in accordance
with generally accepted government auditing standards.

RESULTS OF AUDIT

Wendover remitted income accurately and timely and generally claimed only servicing fees and
asset-related expenses that were supported and allowable under contracts 783-94-0125 and
713-94-0250 for the 3-month periods that we reviewed for each contract. Although Wendover
charged unallowable servicing fees for some loans that had been delinquent for several years, the
FDIC recovered those fees before the completion of our audit. In addition, because neither
Wendover nor the FDIC had copies of the servicing agreements, we generally could not
determine whether Wendover charged the correct servicing fees for LSFO and participation
loans.

Wendover Claimed Servicing Fees on Delinquent FDIC Loans

Wendover charged unallowable servicing fees on at least five FDIC loans that were delinquent
before the RTC transferred them to Wendover for servicing. For example, one loan with a
principal balance of $50,490 that Wendover began servicing under contract 783-94-0125 in
April 1995 had been delinquent since May 1990. Moreover, in March 1995, before the RTC
transferred the loan to Wendover, it foreclosed on the loan and assumed ownership of the
collateral, which the FDIC subsequently sold on July 2, 1996. Wendover charged servicing fees



                                                3
and paid property-inspection expenses for about 2 years before preparing a case to write off the
loan. Based on the monthly loan-servicing reports, Wendover billed about $335 for unnecessary
property inspections and servicing fees during the 2-year period. However, DRR officials
addressed the issue of servicing fees on delinquent loans with Wendover during a
November 1997 site visit, and Wendover refunded about $6,000 in servicing fees to the FDIC
during the course of our audit. Accordingly, we are not recommending that the FDIC take any
additional action regarding this issue.

Servicing Agreements for LSFO and Participation Loans Not Provided to Wendover

Neither Wendover nor the FDIC had copies of servicing agreements for LSFO and participation
loans under contracts 783-94-0125 and 713-94-0250. Accordingly, we could not verify that the
servicing fees being charged to the investors were accurate. The FDIC was entitled to and received
the servicing fees that Wendover charged to investors because the FDIC was the primary servicer
for the loans. The servicing agreements for LSFO and participation loans were typically between
savings and loan institutions, where one institution sold all or a percentage of a loan portfolio to
another institution but retained the servicing rights. The two institutions would negotiate a
purchasing and servicing agreement that specified the responsibilities of the two parties and the
servicing fees to be paid. When institutions involved in those agreements failed, the RTC, as
receiver, assumed control of the loans and/or servicing rights owned by the failed institutions.

Wendover officials stated that the RTC should have provided the purchasing and servicing
agreements for those loans when the loans were assigned to Wendover. Wendover recognized that
the servicing agreements were missing and in late 1995, proposed to perform a file scrub to validate
the loan-servicing information provided by the RTC. However, in November 1995, the FDIC
rejected the proposal because it did not have adequate resources to oversee the project. Because it
did not have the servicing agreements, Wendover collected fees based on the service-fee data in the
automated loan-servicing system that it inherited from the previous servicers.

Because neither the FDIC nor Wendover had copies of the loan-servicing agreements, we contacted
selected investors who purchased some of the loans to determine if they could provide the servicing
agreements. Only 6 of the 25 investors that we contacted provided copies of the servicing
agreements applicable to their loans. For five of the six agreements, Wendover was accurately
collecting servicing fees from the investors and remitting those fees to the FDIC. For the sixth
agreement, Wendover was not withholding specified servicing fees (.375 percent per year or .03125
percent per month of the principal balance) from remittances to investors. Accordingly, Wendover
should have withheld a total of about $290 in servicing fees for that loan for the 3-month period
covered by our review. However, because the RTC did not provide Wendover a copy of the
servicing agreement and the automated loan-servicing system did not show that the previous
servicer had charged servicing fees, Wendover had no basis for withholding servicing fees.

DOF officials reported in October 1998 that the LSFO and participation loans were scheduled for
sale by the end of 1998. Therefore, we did not believe that the cost and effort associated with trying
to locate the remaining servicing agreements would be justified. Accordingly, we are not
recommending that the FDIC take any action regarding this issue.




                                                  4
CONCLUSION

Wendover remitted income accurately and timely and generally claimed only servicing fees and
asset-related expenses that were supported and allowable under contracts 783-94-0125 and
713-94-0250 for the periods covered by our review. Although Wendover had charged
unallowable servicing fees on delinquent loans, DRR officials took corrective actions and
recovered the unallowable fees during the course of our audit. In addition, the OIG could not
verify the accuracy of servicing-fee income that Wendover collected from investors because
neither Wendover nor the FDIC had copies of the loan-servicing agreements for LSFO and
participation loans. However, because DRR was planning to dispose of those loans by the end of
1998, we did not believe that it would be cost-effective to try to locate the servicing agreements.
Accordingly, we are not making any recommendations. FDIC management officials chose not to
submit a written response to the draft report since there were no recommendations to address.




                                                5
